OFFICE OF THE
SECRETARY
Office of the Secretary’s
Working Capital Fund
Billing Control Issues
Resulted in Incorrect
Charges

FINAL REPORT NO. OIG-14-020-A
MAY 15, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
May 15, 2014

MEMORANDUM FOR:               Ellen Herbst
                              Chief Financial Officer and Assistant Secretary for Administration
                              Kelly R. Welsh
                              General Counsel



FROM:                         Andrew Katsaros
                              Assistant Inspector General for Audit

SUBJECT:                      Office of the Secretary’s Working Capital Fund Billing Control Issues
                              Resulted in Incorrect Charges
                              Final Report No. OIG-14-020-A

Attached please find the final report of our audit of controls over the Office of the Secretary’s
Working Capital Fund (WCF) in fiscal year (FY) 2013. During our audit, we reviewed 34 WCF
projects managed by 9 service providers, which provide services to 13 customers.

For 10 of the projects reviewed, we found that the Office of the Secretary Financial
Management Directorate did not use current billing rates and/or the service providers did not
have accurate supporting documentation for amounts charged to the customers. Consequently,
the customers receiving services from these projects were not billed in accordance with the
Department’s Working Capital Fund & Advances and Reimbursements Handbook.

We recommend that the Chief Financial Officer and Assistant Secretary for Administration

   1. Update processes for calculating the correct bases of charge and obtain the most
      current documentation from the service providers, in order to ensure that customers
      are charged for their appropriate share of project costs.

   2. Require a validation and certification process for Office of General Counsel (OGC) and
      other WCF service providers to capture and retain supporting documentation that
      accurately reflects the level of services provided to customers.

   3. Make a determination on whether FY 2013 charges should be reviewed and recalculated
      accordingly, and whether adjustments should be considered in calculating charges for FY
      2014.
We recommend that the General Counsel

   4.	 Develop an automated process to track attorney time, by customer and services
       provided, to ensure that customers are accurately charged for the OGC projects within
       the WCF.

In accordance with Department Administrative Order 213-5, please provide us your action
plans within 60 days of this memorandum. The plans should outline the actions you propose to
take to address each audit recommendation.

We appreciate the cooperation and courtesies extended to us by your staff during our review.
If you have any questions or concerns about this report, please do not hesitate to contact me
at (202) 482-7859, or Patty McBarnette, Director, Financial and Operational Audits, at (202)
482-3391.

Attachment
                                            Report In Brief                                        MAY 15, 2014



Background                            OFFICE OF THE SECRETARY
The U.S. Department of Com-
merce Working Capital Fund
                                      Office of the Secretary’s Working Capital Fund Billing Control
(WCF) was established in 1944.        Issues Resulted in Incorrect Charges
It operates as a revolving fund
                                      OIG-14-020-A
approved by Congress, set up to
provide centralized services to
the Department as efficiently and     WHAT WE FOUND
economically as possible. In fiscal
year (FY) 2013, the WCF collect-      We reviewed 34 projects managed by 9 service providers, which provide services to 13
ed nearly $150 million for 62         customers. For 10 of the projects reviewed, we found that OSFM did not use current
projects managed by 12 service        billing rates and the service providers did not have accurate supporting documentation
providers within the Department.      for the amounts they charged to the customers. Consequently, the customers receiving
Services provided include infor-      services were not billed in accordance with the Department’s Working Capital Fund &
mation technology, human              Advances and Reimbursements Handbook. Specifically, we found that
resources, security, and legal
services.                               • OSFM relied on inconsistent project information and incorrect bases of charge. In 10
                                          instances for 8 separate projects, OSFM either (a) relied on inaccurate information
The Office of the Secretary               from service providers and/or (b) used incorrect bases to calculate charges. Based
Financial Management Directorate          on the projects’ operating budgets and auditor-calculated percentages, we
(OSFM), located in the Office of          concluded that customers were either over- or undercharged for these services.
Financial Management, provides            For five of the instances, the documentation provided by the service providers did
the financial stewardship and
                                          not agree with the information provided by OSFM used to calculate WCF charges.
management of the fund, while
                                          For the other five instances, OSFM used incorrect population counts to support its
the service providers deliver and
financially manage the goods and
                                          charges to customers.
services. The National Institute of     • OSFM did not use current billing information. For four projects, we found that OSFM
Standards and Technology’s                used prior-year billing information. In two of these instances the service providers
Financial Operations Division             did not provide up-to-date information needed to calculate accurate charges. In the
provides accounting services for          other two instances we could not determine whether the provider furnished
the WCF using information pro-            current billing information necessary to calculate correct charges.
vided by OSFM.
                                      WHAT WE RECOMMEND
Why We Did This Review
The objective of our audit was to     We recommend that the Chief Financial Officer and Assistant Secretary for
evaluate controls over the WCF        Administration
in FY 2013. Specifically, we sought     1. Update processes for calculating the correct bases of charge and obtain the most
to determine whether (1) esti-             current documentation from the service providers, in order to ensure that
mated total project costs were             customers are charged for their appropriate share of project costs.
reasonable, (2) data used to es-
tablish billing rates were current,     2. Require a validation and certification process for Office of General Counsel
(3) customers were charged in              (OGC) and other WCF service providers to capture and retain supporting
accordance with the WCF Hand-              documentation that accurately reflects the level of services provided to customers.
book, (4) the service provider had      3. Make a determination on whether FY 2013 charges should be reviewed and 

supporting documentation for               recalculated accordingly, and whether adjustments should be considered in 

amounts charged to customers,              calculating charges for FY 2014.

and (5) the services provided
were necessary. We also re-           We recommend that the General Counsel
viewed the application of the           4. Develop an automated process to track attorney time, by customer and services
WCF’s prior-year carryover in              provided, to ensure that customers are accurately charged for the OGC projects
FY 2013.                                   within the WCF.
U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL


Contents

Introduction .......................................................................................................................................................1

Objective, Findings, and Recommendations ...............................................................................................2

   I.	     OSFM and Service Providers Did Not Comply with Established WCF Billing

           Requirements.........................................................................................................................................2

Summary of Agency Response and OIG Comments................................................................................7

Appendix A: Objective, Scope, and Methodology.....................................................................................8

Appendix B: WCF Projects Reviewed ...................................................................................................... 10

Appendix C: Detailed Overcharges and (Undercharges) by WCF Projects in FY 2013............... 11

Appendix D: Agency Response .................................................................................................................. 12





                                                                                                                       COVER: Detail of fisheries pediment,
                                                                                                              U.S. Department of Commerce headquarters,

                                                                                                                      by sculptor James Earle Fraser, 1934





FINAL REPORT NO. OIG-14-020-A
    U.S. DEPARTMENT OF COMMERCE                                                                      OFFICE OF INSPECTOR GENERAL



Introduction

The U.S. Department of Commerce Working Capital Fund (WCF) was established on June 28,
1944 pursuant to 5 U.S.C. § 607 (1944) (current version at 15 U.S.C § 1521(2014)) without
fiscal year (FY) limitation. It operates as a revolving fund approved by Congress, set up to
provide centralized services to the Department as efficiently and economically as possible. In FY
2013, the WCF collected nearly $150 million for 62 projects managed by 12 service providers
within the Department. Services provided include information technology, human resources,
security, and legal services.

The Office of the Secretary Financial Management Directorate (OSFM), located in the Office of
Financial Management, provides the financial stewardship and management of the fund, while
the service providers deliver and financially manage the goods and services. To determine how
much to charge customers, service providers establish each project’s operating budget and
calculate a percentage each customer must pay by using a billing algorithm. The basis of charge
varies by project and can include population, use, square footage of customer space, or prior-
year actual costs.

Annually, OSFM updates the Department’s Working Capital Fund & Advances and Reimbursements
Handbook1 (WCF Handbook), which outlines the services funded by the WCF as well as an
introduction to the WCF’s budget cycle and billing and payment process. Bi-annually,
representatives from the service providers, customers, and OSFM convene to review the
projects’ services and billing algorithms. The billing algorithms determine the percentage of
project costs each customer will pay. At these meetings, suggested changes are made to the
projects’ bases of charge and these changes, along with WCF project cost increases, are
presented to the Commerce Chief Financial Officer Council for final review and approval.

The National Institute of Standards and Technology’s Financial Operations Division
(NIST/FOD) provides accounting services for the WCF using information provided by OSFM.
This Division collects payments from the customers quarterly, and posts monthly project
charges against the payments. NIST/FOD also prepares statements to reflect financial
conditions, income and expenses, and sources and application of funds.




1
    U.S. Department of Commerce, Office of the Secretary, 2013. Working Capital Fund and Advances & Reimbursements Handbook.



FINAL REPORT NO. OIG-14-020-A                                                                                                  1
  U.S. DEPARTMENT OF COMMERCE                                                                        OFFICE OF INSPECTOR GENERAL



Objective, Findings, and Recommendations 

The objective of our audit was to evaluate controls over the Office of the Secretary’s WCF in
FY 2013. Specifically, we sought to determine whether (1) estimated total project costs were
reasonable, (2) data used to establish billing rates were current, (3) customers were charged in
accordance with the WCF Handbook, (4) the service provider had supporting documentation for
amounts charged to customers, and (5) the services provided were necessary. We also
reviewed the application of the WCF’s prior-year carryover in FY 2013. To address our
objective, we reviewed 34 projects managed by 9 service providers,2 which provide services to
13 customers.3 For further discussion on the audit’s objective, scope, and methodology, see
Appendix A.

Generally, we determined that the billing estimates were reasonable, bureaus were consistently
charged, and the services were necessary for the 34 programs selected for review. We also had
no exceptions with treatment of the prior-year carryover. However, for 10 of the projects
reviewed, we found that OSFM did not use current billing rates and/or the service providers
did not have accurate supporting documentation for the amounts they charged to the
customers. Consequently, the customers receiving services were not billed in accordance with
the WCF Handbook.

I.	 OSFM and Service Providers Did Not Comply with Established WCF Billing
       Requirements
Documentation from oversight officials within the WCF-funded projects disclosed that in
FY 2013, OSFM and service providers did not comply with billing requirements established in
the Department’s FY 2013 WCF Handbook, which identifies the approved basis of charge for
each WCF project. The noncompliance occurred because OSFM relied on incorrect bases of
charge, inaccurate supporting documentation, and/or incorrect billing information for 10 of the
34 projects reviewed. Further, WCF service providers have no requirement to validate or
certify billing data provided to OSFM. As a result, customers were either over- or
undercharged for services provided in FY 2013, compared to the amount that should have been
billed. OSFM and the WCF service providers need to ensure that the amounts billed to the
customers are accurate and supported by documentation. A summary of our sample review is
in Appendix B.


                                                            
2
  The nine service providers are: the Office of Acquisition Management; Office Administrative Service (OAS); Office of the Chief Information

Officer; Office of Civil Rights; Office Financial Management (OFM); Office of General Counsel (OGC); Office of Human Resource Management 

(OHRM); Office of Performance, Evaluation, and Risk Management; and Office of Security (OSY).
 
3
  The 13 customers are: the Office of Secretary (OS), International Trade Administration (ITA), Economic Development Administration (EDA), 

National Telecommunications and Information Administration (NTIA), National Technical Information Service (NTIS), Census Bureau (CEN), 

Economics and Statistics Administration/Bureau of Economic Analysis (ESA), National Oceanic and Atmospheric Administration (NOAA), 

National Institute of Science and Technology (NIST), Minority Business Development Agency (MBDA), Bureau of Industry and Security (BIS), 

Office of Inspector General (OIG), and U.S. Patent and Trademark Office (USPTO). The results for USPTO are not included in this audit 

report because USPTO’s WCF charges are established through memorandums of understanding instead of a percentage of costs. To maintain 

independence, we do not audit OIG data.





FINAL REPORT NO. OIG-14-020-A                                                                                                              2
 U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


OSFM Relied on Inconsistent Project Information and Incorrect Bases of Charge
The FY 2013 WCF Handbook identifies the basis of charge for each centralized service provided
to customers. By comparing the percentage of costs charged to each customer with the
applicable supporting documentation, we found that in ten instances for eight separate projects
OSFM either (a) relied on inaccurate information from service providers and/or (b) used
incorrect bases to calculate charges. Based on the projects’ operating budgets and auditor-
calculated percentages, we concluded that customers were either over- or undercharged for
these services, as illustrated in table 1. (A detailed report of over- and undercharges is in
Appendix C.)

            Table 1. Working Capital Fund Overcharges and (Undercharges)
                         in FY 2013, by Customer and Cause
                                   Inaccurate                                      Total
                                  Supporting             Incorrect Bases       Overcharges or
               Customer          Documentation              of Charge          (Undercharges)
            OS                               (7,576)                99,766               92,190
            ITA                             (99,189)               (60,329)           (159,518)
            EDA                             (49,170)                78,313               29,143
            NTIA                               7,957             (302,455)            (294,498)
            NTIS                             18,585                102,373              120,958
            CEN                             472,926                 61,408              534,334
            ESA                              43,126                (43,064)                   62
            NOAA                          (320,625)              (432,964)            (753,589)
            NIST                          (140,910)                138,620               (2,290)
            MBDA                             32,470                102,046              134,516
            BIS                              26,871                (71,276)             (44,405)

           Source: Calculated by OIG based on documentation provided by OSFM and the service providers.

For five of the instances, the documentation provided by the service providers did not agree
with the information provided by OSFM used to calculate WCF charges. To illustrate, for three
of the projects—(1) legislation and regulations, (2) finance and litigation, and (3)
administration—OGC used attorney timesheets to calculate the appropriate percentage of
services provided to each customer. These timesheets were electronic or handwritten
spreadsheets that showed that attorneys tracked their time manually, identifying the services
provided and the customers they were provided to. The attorney timesheets were then
manually transferred to a quarterly and yearly summary breakdown of services by customer.
OSFM relies on OGC’s yearly summary to calculate the appropriate percentages charged to the
customers. We found that the percentages of services identified in OGC’s FY 2013 quarterly
summary timesheets did not match the yearly summary percentages used to charge customers.
OGC does not have a process in place to review and verify the accuracy of data provided to


FINAL REPORT NO. OIG-14-020-A                                                                             3
 U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


OSFM. However, a validation and certification process is important to ensure the accuracy of
amounts billed to the customer.

The values of OGC mischarges noted in our audit are identified in table 2.

        Table 2. Overcharges and (Undercharges) by Office of General Counsel
                        in FY 2013, by Customer and Project


                                               WCF Projects
                                Legislation                                         Total
                                   and         Finance and                      Overcharges or
             Customer           Regulations     Litigation    Administration    (Undercharges)
            OS                         2,298       156,563        (166,712)              (7,851)
            ITA                       1,186       (68,079)          (90,723)          (157,616)
            EDA                      (1,441)       11,608            19,105              29,272
            NTIA                    (11,448)     (288,937)             2,947          (297,438)
            NTIS                      1,771       109,511            10,150             121,432
            CEN                       3,075       326,940           249,345             579,360
            ESA                       7,513        (1,631)           (2,358)               3,524
            NOAA                      3,077      (694,208)         (147,819)          (838,950)
            NIST                    (12,146)      (94,772)          140,004              33,086
            MBDA                      2,806       137,334            (5,991)            134,149
            BIS                       6,268         5,039           (53,109)            (41,802)
           Source: Calculated by OIG based on documentation provided by OSFM and the service providers.

Several customers also expressed concern about insufficient documentation to support WCF
project costs, particularly those overseen by OGC. Discussions with customer officials
disclosed that they requested such documentation, but they rarely received it. These customers
questioned whether they were being properly charged for services provided by OGC.

Other areas where we found inaccurate charges include:

    	 OHRM’s Office of Policy and Programs, which charged for services based on an 

       inaccurate count of the number of prior-year drug tests.


    	 OAS’s Electronic Travel System, where the number of travelers used to support charges
       for its services did not match the numbers provided by the Department’s travel
       contractor for the same time period.

As a result, customers were incorrectly charged for these WCF services. (See Appendix C for
detailed figures.)


FINAL REPORT NO. OIG-14-020-A                                                                             4
 U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


In five instances, we found that OSFM used incorrect population counts to support its charges
to customers:

    	 For OHRM’s Office of Policy and Programs, OSFM used the FY 2012 count of the
       Department’s full-time employees instead of FY 2013 numbers.

    	 For OFM’s Business Application Solutions, OSFM used the FY 2011 count of the

       Department’s full-time employees instead of FY 2013 numbers.


    	 For OHRM’s Human Resources Management System, OSFM used FY 2014 PeopleSoft
       licenses instead of FY 2013 numbers.

    	 For two projects—the OFM Business Application Solutions and OSY Investigation and
       Intelligence projects—OSFM included too many full-time employees in the OS count,
       thus affecting the percentage customers were charged.

OSFM stated that it relied on the best information available at the time when executing the
billing algorithms for the eight projects we identified as having made miscalculations. It took
immediate steps to educate its staff on using the right population count and requesting better
information from the service providers. However, we believe that service providers and OSFM
both need to take additional steps to ensure that customers are properly charged for their
share of project costs.

OSFM Did Not Use Current Billing Information
For four projects, we found that OSFM used prior-year billing information. In two of these
instances—OFM’s Oklahoma Enterprise Application Systems and OGC’s Legal Information
Retrieval—the service providers did not provide up-to-date information needed to calculate
accurate charges. In the other two instances—OGC’s Administration and OGC’s Finance and
Litigation—we could not determine whether the provider furnished current billing information
necessary to calculate correct charges. Going forward, OSFM should ensure that they use the
most current data available in the algorithms to ensure that customers are only paying for
services received.

OFM’s Oklahoma Enterprise Application Systems project generates bills based on the number
of servers, application users, customer full-time employee counts, and help desk tickets for each
system used by the customers. OFM did not provide FY 2013 billing information in a timely
manner, so OSFM instead relied on FY 2011 billing information to allocate charges. This is the
only instance we identified where a service provider did not provide OSFM the information in a
timely manner.

Billing for OGC’s Legal Information Retrieval project is based on the use of online services and
the number of users, and relies on vendor usage reports to determine charges. Usage reports
were not available to prepare the FY 2013 billing information, so OSFM instead used the FY
2012 algorithm. OSFM stated that, generally, WCF costs do not significantly differ year to year,
thus the use of past algorithms does not usually affect customers. However, without current
information, OSFM cannot justify this approach.

FINAL REPORT NO. OIG-14-020-A                                                                      5
 U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


For the Administration and Finance and Litigation projects, OGC bills customers based on the
percentage of attorney services provided. OGC and OSFM were not able to provide sufficient
evidence as to what percentages were provided and received for FY 2013, but ultimately OSFM
used the FY 2012 percentages to charge customers.

Recommendations

We recommend that the Chief Financial Officer and Assistant Secretary for Administration:

    1.	 Update processes for calculating the correct bases of charge and obtain the most
        current documentation from the service providers, in order to ensure that customers
        are charged for their appropriate share of project costs.

    2.	 Require a validation and certification process for OGC and other WCF service
        providers to capture and retain supporting documentation that accurately reflects the
        level of services provided to customers.

    3.	 Make a determination on whether FY 2013 charges should be reviewed and recalculated
        accordingly, and whether adjustments should be considered in calculating charges for FY
        2014.

We recommend that the General Counsel:

    4.	 Develop an automated process to track attorney time, by customer and services
        provided, to ensure that customers are accurately charged for the OGC projects within
        the WCF.




FINAL REPORT NO. OIG-14-020-A                                                                   6
 U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL



Summary of Agency Response and OIG
Comments
OIG received the Department’s comments on the draft report, which we include as appendix
D of this final report. The Department concurs with the findings and recommendations in the
report and is working to enhance processes to obtain current documentation from service
providers, calculate the correct bases of charge, and validate correct billing information. It is
also committed to continuing to enhance customer communication and provide customers with
the necessary supporting documentation. Finally, additional controls will be put in place to
ensure the Department uses the correct billing year.

We look forward to receiving the Department’s action plans.




FINAL REPORT NO. OIG-14-020-A                                                                   7
 U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


Appendix A: Objective, Scope, and
Methodology
The objective of our audit was to evaluate the controls over the Office of the Secretary’s
Working Capital Fund (WCF), specifically, the Department’s budget process and financial
management of the fund for FY 2013. To accomplish our objective, we:

    	 Reviewed laws, regulations, and policies related to the WCF including 5 U.S.C. § 607
       (1944) (current version at 15 U.S.C. § 1521(2014)) and the Office of Secretary Working
       Capital Fund & Advances and Reimbursements Handbook.

    	 Obtained a list of WCF projects from the WCF Handbook and from the FY 2013
       operating budget and then randomly selected 34 of the 62 listed WCF projects for
       detailed testing. These projects span nine service providers within the Department’s
       Office of the Secretary. For a complete list of the projects reviewed, see Appendix B.

    	 Interviewed officials from the Office of Secretary Financial Management Directorate
       (OSFM), National Institute of Standards and Technology Financial Operations Division
       (NIST/FOD), and from the nine WCF service providers included in our sample.

    	 Met with the customers in our sample to determine their understanding of the WCF
       and discuss any concerns.

    	 Obtained and reviewed evidence from OSFM, NIST/FOD, and the service providers to
       support the project costs, WCF billing algorithms, and customer allocation of WCF
       charges (such as contracts, summary timesheets, usage reports, and full-time employee
       counts). We also reviewed NIST/FOD’s application of the prior-year carryover in FY
       2013 for the 34 projects sampled.

We reviewed internal controls significant within the context of our audit objectives by
interviewing OSFM, NIST/FOD, and service provider officials and by examining policies and
procedures related to monitoring and managing the WCF, including the process for
determining billing algorithms and customer allocations, and collecting customer payments. We
also reviewed documentation to determine whether the project costs and billing estimates are
reasonable, the data used to establish billing rates are current, the service provider has
supporting documentation for amounts charged to customers, and the project is consistently
charging customers and in accordance with the WCF Handbook. We found that corrective
actions are needed to improve internal controls, as discussed in this report.

To satisfy our objectives, we did not rely on computer-processed data. Instead, we reviewed
documentation provided by OSFM and service providers to support WCF amounts billed to
the customers. Therefore, we did not test the reliability of information technology systems.

We conducted this audit from June through December 2013 at Department headquarters in
Washington, DC, under the authorities of the Inspector General Act of 1978, as amended, and

FINAL REPORT NO. OIG-14-020-A                                                                   8
 U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


Department Organization Order 10-13, April 26, 2013. We conducted this audit in accordance
with generally accepted government auditing standards. We complied with those standards that
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions, based on our audit objectives.




FINAL REPORT NO. OIG-14-020-A                                                                  9
 U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


Appendix B: WCF Projects Reviewed

    Service Provider                       Project                                   Issues Identified
                                                                       Inaccurate        Incorrect         Used
                                                                      Supporting          Basis of       Incorrect
                                                                     Documentation        Charge         Algorithm
  Office of Acquisition    Acquisition Risk Management                      -                -               -
  Management               Strategic Sourcing                              -                 -               -
                           Building Management Division                    -                 -               -
                           Electronic Travel Systems                                        -               -
                           Facilities Services Division                   -                  -               -
  Office of                Mail Services Division                          -                 -               -
  Administrative           OAS Immediate Office                            -                 -               -
  Service                  Multimedia Division                             -                 -               -
                           Office of Real Property Programs                -                 -               -
                           Space Management Division                       -                 -               -
                           Travel Management Division                      -                 -               -
  Office of the Chief      Enterprise Cybersecurity Project                -                 -               -
  Information Officer      HCHB Network                                    -                 -               -
  Office of Civil Rights   Civil Rights                                    -                 -               -
                           Business Application Solutions                  -                                -
  Office of Financial
  Management               Oklahoma Enterprise Application
                           Systems                                         -                 -              
                           Administration                                                   -              
                           Finance and Litigation                                           -              
  Office of General
                           Legislation and Regulations                                      -              -
  Counsel
                           Law Library                                    -                  -              -
                           Legal Information Retrieval                    -                  -              
                           Awards Program                                  -                 -              -
                           Human Capital and Accountability                -                 -              -
                           Employee Assistance                             -                 -               -
  Office of Human          Executive Resources                             -                 -               -
  Resource                 Human Resources Management System               -                                -
  Management               Human Resource Operations                       -                 -               -
                           Occupational Safety and Health                 -                                  -
                           Office of Policy and Programs                                                   -
                           Project and Administrative Management          -                  -               -
  Office of Program
  Evaluation and Risk      Risk Management                                 -                 -               -
  Management
                           HCHB Security                                   -                 -               -
  Office of Security       Investigation and Intelligence Programs         -                                -
                           Security Programs                               -                 -               -




FINAL REPORT NO. OIG-14-020-A                                                                                    10
    U.S. DEPARTMENT OF COMMERCE                                                                                                                     OFFICE OF INSPECTOR GENERAL


Appendix C: Detailed Overcharges and (Undercharges) by WCF
Projects in FY 20131

                                                                     Office of                                  Office of                                                                Total
                   Service    Office of Human Resource                                      Office of
                                                                     Financial                                Administra-                Office of General Counsel
                  Providers          Management                                             Security
                                                                    Management                                tive Service                                                            Overcharges
                                                                                                                                                                                          or

                                                 Human                                    Investigation                                                                                (Under-
                               Office of                              Business                                 Electronic        Legislation        Finance
                   WCF                          Resource                                       and                                                                    Admini-          charges)
                              Policy and                             Application                                 Travel             and                and
                  Projects                     Management                                  Intelligence                                                               stration
                              Programs                                Solutions                                 Systems          Regulations       Litigation
                                                 System                                     Programs
                        OS           (390)            (1,490)                81,231               18,632              2,058             2,298         156,563         (166,712)               92,190
                        ITA            877            (4,972)                  1,801                 227                 165            1,186         (68,079)          (90,723)         (159,518)
                       EDA             378            (1,325)                      79                   0                739           (1,441)          11,608            19,105              29,143
                      NTIA             958            (2,083)                  2,254                 227              1,584          (11,448)       (288,937)              2,947         (294,498)
                      NTIS             296              (757)                       0                   0               (13)            1,771         109,511             10,150          120,958
      Customers




                       CEN          8,819           (90,891)                 40,796                  227             (3,977)            3,075         326,940           249,345           534,334
                       ESA             143            (3,598)                    110                    0              (117)            7,513          (1,631)           (2,358)                  62
                    NOAA           (2,542)           129,341                (35,016)                 227             (6,649)            3,077       (694,208)         (147,819)          (753,589)
                      NIST         (7,087)          (20,198)                (12,741)                 227              4,423          (12,146)         (94,772)          140,004            (2,290)
                     MBDA            (102)              (505)                    224                 227                 523            2,806         137,334            (5,991)          134,516
                        BIS             82            (2,544)                (1,687)                 227              1,319             6,268            5,039          (53,109)          (44,405)

     Source: Calculated by OIG based on documentation provided by OSFM and the service providers

1
 OGC’s Legal Information Retrieval and OFM’s Oklahoma Enterprise Application Systems were not included in this table because we did not have FY 2013 data to determine the over- or
undercharges.



FINAL REPORT NO. OIG-14-020-A                                                                                                                                                            11
 U.S. DEPARTMENT OF COMMERCE                   OFFICE OF INSPECTOR GENERAL


Appendix D: Agency Response





FINAL REPORT NO. OIG-14-020-A   011200000168                         12
